VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                           Audit of 

                                                                      VA’s Technology 

                                                                      Acquisition Center 

                                                                     Contract Operations 





                                                                                    September 27, 2013
                                                                                     12-02387-343
             ACRONYMS AND ABBREVIATIONS

eCMS         Electronic Contract Management System
FAR          Federal Acquisition Regulation
IDIQ         Indefinite Delivery/Indefinite Quantity
IOP          Integrated Oversight Process
IT           Information Technology
OIG          Office of Inspector General
TAC          Technology Acquisition Center
VA           Veterans Affairs




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                             Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

              (Hotline Information: http://www.va.gov/oig/hotline) 

                   Report Highlights: Audit of VA’s
                   Technology Acquisition Center
                   Contract Operations

Why We Did This Audit                           FAR requirements. We project the TAC
                                                missed an opportunity to save approximately
From October 2010 through June 2012, the        $57.9 million by not competing IDIQ task
Technology Acquisition Center (TAC)             orders. We also project the TAC could have
awarded approximately 1,200 Information         saved approximately $50.8 million by
Technology (IT) services contracts valued at    competing contracts among commercial
approximately $5.2 billion. We conducted        sources instead of awarding Interagency
this audit to determine whether the TAC         Acquisitions.
awards and administers IT services contracts
in accordance with the Federal Acquisition      What We Recommended
Regulation (FAR) and VA policy.
                                                We made three recommendations to the
What We Found                                   Principal Executive Director for the Office
                                                of Acquisition, Logistics, and Construction
We found no significant issues with 61 of       to ensure that IDIQ task order awards and
79 statistically  selected    IT     services   Interagency Acquisitions comply with FAR
contracts. However, the TAC awarded             competition requirements.
18 contracts that did not meet FAR
competition requirements. This occurred         Agency Comments
because the TAC did not adequately justify
using an exception to FAR competition           The Principal Executive Director for    the
requirements to award four of six task orders   Office of Acquisition, Logistics,      and
under two Indefinite Delivery/Indefinite        Construction      concurred    with    the
Quantity (IDIQ) contracts valued at             recommendations       and   provided     an
approximately $143.1 million. We extended       acceptable action plan.
our review to include an additional 72 task
orders awarded under these contracts. The
TAC used the same FAR exception for 16 of
the 72 task orders valued at approximately
$146.6 million.

In addition, the TAC did not follow FAR
requirements         before        awarding
14 Interagency Acquisitions valued at
approximately      $254 million     without              LINDA A. HALLIDAY
demonstrating IT services could not be                Assistant Inspector General
obtained as conveniently or economically by           for Audits and Evaluations
contracting directly with a commercial
source.     This occurred because VA’s
Integrated Oversight Process reviews did not
prevent the TAC’s noncompliance with

                                                                                          i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                VA Did Not Leverage Competition When Contracting for IT Services.............2
 

                           Recommendations ...............................................................................................8
 

Appendix A                 Background .........................................................................................................9
 

Appendix B                 Scope and Methodology....................................................................................12
 

Appendix C                 Statistical Sampling Methodology ....................................................................14
 

Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................16
 

Appendix E                 Principal Executive Director for the Office of Acquisition, Logistics, and 

                           Construction Comments....................................................................................17
 

Appendix F                 Office of Inspector General Contact and Staff Acknowledgments.................. 19
 

Appendix G                 Report Distribution .......................................................................................... 20
 




                                                                                                                                                 ii
                                                             Audit of VA’s TAC Contract Operations



                    INTRODUCTION
Objective           The VA Office of Inspector General (OIG) conducted this audit to determine
                    whether the Technology Acquisition Center (TAC) awarded and
                    administered information technology (IT) services contracts in accordance
                    with Federal Acquisition Regulation (FAR) and VA policy.

Technology          Established in March 2009, the TAC provides acquisition and management
Acquisition         expertise to support VA’s IT initiatives and programs. The TAC’s primary
Center
                    customer is VA’s Office of Information and Technology.              From
                    October 2010 through June 2012, the TAC awarded and administered
                    approximately 1,200 contracts for IT services with a reported value of
                    approximately $5.2 billion.

Importance of       The FAR requires agencies to compete all contracts unless the acquisition
Competition in      qualifies for an exception authorized by the FAR. According to the General
Federal
Acquisitions
                    Accountability Office, competition is a critical tool for agencies to achieve
                    the best possible return on investment for taxpayers. According to the
                    General Accountability Office, competitively awarded contracts save
                    taxpayers money, improve contractor performance, discourage fraud, and
                    promote accountability.

IDIQ Contracts      An Indefinite Delivery/Indefinite Quantity (IDIQ) contract is one in which
                    the contractor agrees to supply whatever quantity an agency orders, within
                    stated limits, and during a fixed period. Once awarded, an agency may issue
                    task orders against the IDIQ contract for specific goods or services as
                    requirements arise. Under multiple-award IDIQ contracts, an agency is
                    required to provide each contractor a fair opportunity to compete for any task
                    order exceeding $3,000, except under a FAR exception.

Interagency         An Interagency Acquisition is the process an agency may use to obtain goods
Acquisitions        and services through another agency. An agency can accomplish this by
                    directly purchasing goods and services from the other agency’s existing
                    contract(s). In addition, an agency can use the other agency’s personnel to
                    plan, award, and administer contracts on its behalf. FAR Subpart
                    17.5 requires an agency to demonstrate goods and services cannot be
                    obtained conveniently or economically from a private source before using an
                    Interagency Acquisition.

Other               The following appendixes provide additional information.
Information
                       Appendix A provides pertinent background information.
                       Appendix B provides details on our scope and methodology.
                       Appendix C provides details on our statistical sampling methodology.



VA Office of Inspector General                                                                  1
                                                             Audit of VA’s TAC Contract Operations



                    RESULTS AND RECOMMENDATIONS 

Finding 	           VA Did Not Leverage Competition When Contracting for
                    IT Services

                    In general, the TAC adequately managed contracting processes for IT
                    services contracts in accordance with the FAR and VA policy. We found no
                    significant issues with contracting processes supporting 61 of 79 IT services
                    contracts awarded during our review period of October 1, 2010, through
                    June 30, 2012. For these 61 contracts, the TAC adequately:

                    	 Prepared and published bid solicitations on the approved Government
                       Web site, which included required deliverables and anticipated
                       milestones
                    	 Evaluated contractor offers in accordance with factors specified in the
                       solicitation, such as technical approaches, proposed cost, and past
                       performance
                    	 Awarded contracts consistent with the results of the technical evaluation
                       of offers and adequately documented award decisions
                    	 Performed contract administration duties after contract award in
                       accordance with FAR requirements

                    However, the TAC awarded 18 contracts that did not meet FAR competition
                    requirements. The TAC did not adequately demonstrate the necessity to use
                    an exception to FAR competition requirements to non-competitively award
                    four of six statistically selected task orders. The four task orders were
                    awarded under two multiple-award IDIQ contracts with a value of
                    approximately $143.1 million.

                    Based on these results, we extended our evaluation of the task orders
                    awarded under these IDIQ contracts, and determined the TAC used the same
                    exception to non-competitively award 16 additional task orders with a value
                    of approximately $146.6 million.         In addition, the TAC awarded
                    14 Interagency Acquisitions with a total value of approximately $254 million
                    without demonstrating IT services could not be obtained as conveniently or
                    economically by contracting directly with a commercial source.

                    This occurred because VA’s Integrated Oversight Process (IOP) reviews did
                    not identify or prevent the TAC’s noncompliance with the FAR requirements
                    concerning competing task orders and using Interagency Acquisitions. VA
                    implemented IOP reviews as an oversight process to build quality during the
                    contracting process. The TAC conducted IOP reviews on the 4 IDIQ task
                    orders in our sample and the additional 16 reviewed task orders. However,
                    the IOP reviews of the 20 task orders did not identify whether the

VA Office of Inspector General                                                                  2
                                                             Audit of VA’s TAC Contract Operations


                    justification the TAC relied upon supported using an exception to FAR
                    competition requirements, or whether there was insufficient time to compete
                    these task orders. In addition, IOP reviews of the 14 Interagency
                    Acquisitions did not identify or prevent using Interagency Acquisitions
                    without demonstrating the IT services could not be acquired as economically
                    or conveniently using commercial sources.

                    The TAC’s noncompliance with FAR requirements likely resulted in higher
                    acquisition costs. We found the TAC missed an opportunity to compete
                    20 task orders. Based on the 20 task orders’ value of approximately
                    $289.7 million, we estimate the TAC could have saved 20 percent in
                    acquisition costs or approximately $57.9 million. In addition, we found the
                    TAC missed an opportunity to compete contracts among commercial sources
                    instead of awarding 14 Interagency Acquisitions.            Based on the
                    14 Interagency Acquisitions’ value of approximately $254 million, we
                    estimate the TAC could have saved 20 percent in acquisition costs or
                    approximately $50.8 million.

Missed              The TAC did not adequately demonstrate the necessity to use an exception to
Opportunities       FAR competition requirements to non-competitively award four of six
to                  statistically selected task orders. Our audit identified four of six IDIQ task
Competitively
Award IDIQ
                    orders issued non-competitively under two multiple-award IDIQ contracts
Task Orders         with a value of approximately $143.1 million. Based on our audit results, we
                    extended our evaluation of the task orders awarded under these IDIQ
                    contracts to include 72 additional task orders. Of the 72 task orders, the
                    TAC used the same exception to non-competitively award 16 task orders
                    with a value of approximately $146.6 million. Our analysis also indicates
                    the TAC had sufficient time to compete these task orders before the end of
                    FY 2011.

IDIQ Task           An IDIQ contract is one in which the contractor agrees to supply whatever
Order               quantity an agency orders, within stated limits, and during a fixed period.
Requirements
                    However, an agency is under no obligation to acquire more than the
                    contract’s guaranteed minimum. Agencies can award IDIQ contracts to a
                    single contractor, or to multiple contractors through one solicitation. Under
                    multiple-award IDIQ contracts, agencies are required to provide each
                    contractor a fair opportunity to compete for any task order with a value of
                    $3,000 or more unless the acquisition qualifies for an exception in the FAR.

Using               When using an exception, an agency must document the supporting rationale
Exceptions to       demonstrating the acquisition qualifies for using the exception.
Competitively
Award
                    FAR Subpart 16.505 provides the following exceptions to competing task
                    orders with a value of $3,000 or more:
                    	 When the order is necessary to satisfy the guaranteed minimum order
                       amount.



VA Office of Inspector General                                                                  3
                                                             Audit of VA’s TAC Contract Operations


                    	 The need for the goods or services is so urgent that providing a fair
                       opportunity would result in unacceptable delays.
                    	 Only one awardee is capable of providing the unique or highly
                       specialized goods or services at the required level of quality.
                    	 The order must be issued on a non-competitive basis in the interest of
                       economy and efficiency because it is a logical follow-on to an order
                       already issued under the contract.
                    	 A statute expressly authorizes or requires that the purchase be made from
                       a specified source.

Awarding of         On June 24, 2011, the TAC competitively awarded a multiple-award IDIQ
IDIQ Contracts      contract to five contractors to support the Veterans Relationship
                    Management Program. The contract is intended to support on-demand
                    access to VA services and benefits through multi-communication methods,
                    such as the telephone, Web sites, email, and social media. The TAC
                    awarded this as a 5-year IDIQ contract that included a guaranteed minimum
                    order for each contractor of $50,000. On the same day this IDIQ contract
                    was awarded, the TAC also awarded a non-competitive task order to each of
                    the five contract holders totaling approximately $35.8 million.

                    The TAC competitively awarded another multiple-award IDIQ contract to
                    15 contractors to support the Transformation Twenty-One Total Technology
                    Enterprise contract on June 30, 2011. This contract is intended to provide
                    systems and software engineering solutions needed to integrate VA systems,
                    networks, or other IT services, to meet mission requirements. The TAC
                    awarded this as a 5-year IDIQ contract with a $50,000 guaranteed minimum
                    order for each contractor. Within 60 days of awarding this IDIQ contract,
                    the TAC awarded one non-competitive task order to each of the 15 contract
                    holders totaling approximately $254 million.

Exceptions Not      TAC officials stated it was necessary to non-competitively award a task
Adequately          order to each of the 20 contractors, under the 2 multiple-award IDIQ
Justified
                    contracts identified above, before the end of FY 2011 to satisfy the required
                    guaranteed minimum order of $50,000. Under FAR 16.505, if an agency
                    uses an exception to competition requirements for IDIQ task orders; it must
                    include a written justification that includes supporting rationale. However,
                    written justifications for the 20 task orders only stated that the task orders
                    were issued to satisfy the guaranteed minimum order, and did not document
                    the rationale of why these task orders qualified for this exception to FAR
                    competition requirements. The TAC needed to better document the reason
                    for using an exception to competition to award 20 task orders valued at
                    approximately $289.7 million to satisfy a cumulative $1 million guaranteed
                    minimum order.




VA Office of Inspector General                                                                  4
                                                             Audit of VA’s TAC Contract Operations


Sufficient Time     Office of Acquisition Operations officials stated that there was insufficient
to Compete the      time to compete these task orders between June 30 and September 30, 2011.
Task Orders in
FY 2011
                    However, we maintain that the TAC could have competed these task orders
                    successfully during the last 90 days of FY 2011. In fact, the TAC required
                    an average of fewer than 54 days to compete and award 104 task orders
                    between July 2011 and April 2013 under the two IDIQ contracts. In
                    addition, the TAC required an average of about 58 days to compete and
                    award task orders initiated during the first 6 months after the award of the
                    IDIQ contracts. Therefore, the TAC could have awarded the 20 task orders
                    using competitive procedures during the last 90 days of FY 2011.

Integrated          In June 2009, VA issued IL 001AL-09-02, Integrated Oversight Process.
Oversight           The IOP requires each contracting activity to commit the time and resources
Process
                    needed to conduct contract reviews, holds Contracting Officers responsible
                    for building quality into the acquisition process, and prevents violations of
                    laws and regulations. Regardless of the type and estimated value, the
                    process requires some form of independent review of all acquisitions, which
                    at a minimum would involve a peer or second-level review. As the contract
                    value increases, the policy requires more formal review procedures involving
                    a Contract Review Team or Contract Review Board.

                    IOP reviews did not identify or question whether the justification the TAC
                    relied upon supported using an exception to FAR competition requirements.
                    The IOP requires a team composed of acquisition and legal professionals to
                    review non-competitive acquisitions with an anticipated value of $500,000 or
                    more for compliance with the FAR and VA policy. While contracting files
                    contained documentation of IOP reviews of the 20 task orders, the reviews
                    did not identify or question the TAC’s use of an exception to the competition
                    requirements in the FAR. In addition, IOP reviews did not question whether
                    sufficient time existed for the TAC to have competed these task orders.

Estimated Cost      The TAC’s use of an exception to FAR competition requirements likely
Savings
                    resulted in higher acquisition costs. To estimate a savings rate from using
                    competitive rather than non-competitive procedures we analyzed
                    Government-wide studies and VA contracting actions identified during the
                    audit.    Our analysis disclosed that using competitive rather than
                    non-competitive procedures to award contracts may result in an estimated
                    average savings rate of 20 percent. The Executive Director for the Office of
                    Acquisition Operations and other senior TAC officials agreed our estimated
                    savings rate of 20 percent was reasonable.

                    We found the TAC missed an opportunity to compete 20 task orders. Based
                    on the 20 task orders’ value of approximately $289.7 million, we estimate
                    the TAC could have saved 20 percent in acquisition costs or approximately
                    $57.9 million.



VA Office of Inspector General                                                                  5
                                                            Audit of VA’s TAC Contract Operations


Awarding            The TAC awarded 14 of 19 sampled Interagency Acquisitions with a total
Interagency         value of approximately $254 million without demonstrating the IT services
Acquisitions
Did Not Fully
                    could not be obtained as conveniently or economically by contracting
Comply With         directly with a commercial source. FAR Subpart 17.502-2 states agency
FAR                 determinations must show the supplies or services cannot be obtained
Requirements        conveniently or economically by contracting directly with a private
                    (commercial) source.

Inadequate          The TAC did not require VA program offices to demonstrate it was more
Acquisition         convenient or economical to use another agency instead of a commercial
Planning
                    source to acquire IT services. Instead, the TAC relied on unsupported
                    program offices’ representations that market research justified using
                    Interagency Acquisitions. Program office representatives could not provide
                    documentation supporting market research, or other required acquisition
                    planning, as required by the FAR. One TAC official acknowledged the TAC
                    awarded Interagency Acquisitions to satisfy VA program offices’
                    preferences to use a specific agency.

Ineffective         IOP reviews did not identify or prevent the TAC’s use of Interagency
Integrated          Acquisitions without first demonstrating the IT services could not be
Oversight           acquired as economically or conveniently using commercial sources. The
Process
                    IOP requires a team to review acquisitions using an Interagency Acquisitions
                    under the authority of the Economy Act for compliance with the FAR and
                    VA policy. The 14 Interagency Acquisitions in our sample were established
                    under the Economy Act and, therefore, were subject to IOP review
                    requirements. However, IOP reviews of the 14 Interagency Acquisitions did
                    not identify or prevent the lack of compliance with FAR requirements. IOP
                    reviews of the 14 Interagency Acquisitions could have assisted the TAC in
                    complying with FAR restrictions on the use of Interagency Acquisitions.




VA Office of Inspector General                                                                 6
                                                               Audit of VA’s TAC Contract Operations


                    Table 1 lists the Interagency Acquisitions the TAC used to acquire IT
                    services to accommodate program offices’ preferences.

Table 1                          Inappropriately Awarded Interagency Acquisitions
                                                                                    Order Value
                        Servicing Agency                 Contract Number
                                                                                    (in millions)
                                                     VA118-10-IA-0001-040                $12.0
                                                     VA118-10-IA-0001-045                $19.3
                                                     VA118-10-IA-0001-031                $24.4

              Department of the Navy, Space and      VA118-11-IA-N-0002                  $35.0
              Naval Warfare Systems Command          VA118-10-IA-0001-037                $36.2
                                                     VA118-10-IA-0001-027                $45.9
                                                     VA118-10-IA-0001-041                $47.8
                                                     VA118-10-IA-0001-050                $11.4
                Subtotal for Department of the Navy, Space and Naval Warfare
                                                                                         $232
                Systems Command
                                                     VA118-11-IA-0003                       $0
              Department of Defense
                                                     VA118-11-IA-0003-002               $0.675
                Subtotal Department of Defense                                          $0.675
              National Archives and Records
                                                     VA118-10-IA-0002-003               $0.025
              Administration
              Department of Labor                    VA118-11-IA-0004-001-01            $0.543
              United States Army Medical
                                                     VA118-11-IA-X-0024                  $20.7
              Research Acquisition Activity
              Office of Personnel Management         VA118-12-IA-X-0021                     $0
                Rounding Adjustment                                                       $0.1
                Total                                                                    $254
             Source: OIG-created table using TAC contract files
             Note: The two zero value items in this table represent the awarding of an initial
                   IA, which is similar to an IDIQ contract.

Estimated           The Executive Director for the Office of Acquisition Operations agreed with
Savings             our analysis that 20 percent was a reasonable savings benchmark to expect
                    from a competitive rather than a non-competitive contracting process. We
                    found the TAC missed an opportunity to compete contracts among
                    commercial sources instead of awarding the 14 Interagency Acquisitions.
                    Based on the 14 Interagency Acquisitions’ value of approximately


VA Office of Inspector General                                                                      7
                                                              Audit of VA’s TAC Contract Operations


                    $254 million, we estimate the TAC could have saved 20 percent in
                    acquisition costs or approximately $50.8 million.

Conclusion          Senior VA acquisition officials need to ensure the TAC’s acquisition
                    activities comply with FAR competition requirements, and the TAC does not
                    unnecessarily miss opportunities to gain the benefits of competition. If the
                    TAC had conducted a more rigorous IOP review of the 20 task orders and
                    14 Interagency Acquisitions, the acquisition and legal professionals
                    conducting the review could have enabled the TAC to comply with FAR
                    requirements. The TAC’s inadequate justification for using a FAR exception
                    to non-competitively award task orders limited the benefits VA could have
                    gained from full and open competition. In addition, the TAC’s inadequate
                    justification for using Interagency Acquisitions similarly limited the benefits
                    VA could have gained from competing contracts among commercial sources.
                    If conducted as envisioned, VA’s IOP reviews should hold Contracting
                    Officers responsible for building quality into the acquisition process and
                    prevents violations of laws and regulations.

                    Recommendations

                    1.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction ensure that contracting activities
                        can adequately justify the use of exceptions to competition requirements
                        in the Federal Acquisition Regulation when awarding Indefinite/Delivery
                        Indefinite Quantity task orders.
                    2.	 We recommended the Principal Executive Director for the Office of
                        Acquisition, Logistics, and Construction require contracting activities to
                        ensure program offices adequately document that goods and services
                        cannot be acquired as conveniently or economically from a commercial
                        source before awarding Interagency Acquisitions.
                    3.	 We recommended the Principal Executive Director for the Office of
                        Acquisition, Logistics, and Construction build work steps into the
                        Integrated Oversight Process to hold contracting officers accountable for
                        preventing violations of Federal Acquisition Regulation competition
                        requirements.

Management          The Principal Executive Director for the Office of Acquisition, Logistics,
Comments            and Construction concurred with the recommendations. An acceptable
and OIG
Response
                    action plan was provided for Recommendation 1. Recommendation 2 was
                    requested to be closed; we considered their request and closed it. OALC also
                    concurred with Recommendation 3 and requested its closure based on
                    actions already taken. However, the new OALC policy does not include
                    building work steps into the Integrated Oversight Process to hold contracting
                    officers accountable for preventing violations of Federal Acquisition
                    Regulation competition requirements. Accordingly, this recommendation
                    will remain open.

VA Office of Inspector General                                                                   8
                                                              Audit of VA’s TAC Contract Operations


Appendix A          Background

Office of           The Office of Acquisition, Logistics, and Construction is responsible for
Acquisition,        directing the acquisition, logistics, construction, and leasing functions within
Logistics, and
Construction
                    the Department of Veterans Affairs. The Principal Executive Director,
                    Office of Acquisition, Logistics, and Construction is also the Chief
                    Acquisition Officer for VA. As part of this organization, the Office of
                    Acquisition Operations manages the activities of the TAC, the Strategic
                    Acquisition Center, the Acquisition Business Service, and the Customer
                    Advocacy Service.

Technology          Established in March 2009, the TAC provides dedicated acquisition support
Acquisition         for life cycle management of enterprise-wide IT solutions for the Office of
Center
                    Information and Technology. The TAC has locations in Eatontown, NJ, and
                    Austin, TX. From October 1, 2010, through June 30, 2012, the TAC
                    awarded and administered approximately 1,200 contracts for IT services with
                    a reported value of approximately $5.2 billion.

Competition         An agency is generally required to perform acquisition planning and conduct
Requirements        market research to promote and provide for:

                    	 The acquisition of commercial items to the maximum extent practicable
                    	 Full and open competition unless an exception is otherwise authorized by
                       law
                    	 The selection of the type of contract, such as an IDIQ or an IA

                    The Competition in Contracting Act of 1984 requires an agency to obtain full
                    and open competition through the use of competitive procedures in its
                    procurement activities unless otherwise authorized by law. Using full and
                    open competition to award contracts means that all responsible sources, or
                    prospective contractors that meet certain criteria, are permitted to submit
                    proposals.

IDIQ Contracts      Task order and delivery order contracting have long been a part of the
                    Federal acquisition system. It has also been the subject of scrutiny by the
                    Congress, Government Accountability Office, and Inspectors General. IDIQ
                    contracting has been criticized for poor implementation; abuse; and trading
                    of competition, integrity, and transparency for speed and efficiency. The
                    IDIQ process was intended for day-to-day contracting, as a tool for reform,
                    and to increase commercial-like procurement practices. Use of IDIQ
                    contracting grew significantly with passage of the Federal Acquisition
                    Streamlining Act of 1994.
                    An agency may use an IDIQ contract when it cannot predetermine, above a
                    specified minimum, the precise quantity of goods or services that will be
                    required during the term of the contract. While IDIQ contracts can be single

VA Office of Inspector General                                                                    9
                                                             Audit of VA’s TAC Contract Operations


                    award (one contractor), the Federal Acquisition Streamlining Act of
                    1994 encourages agencies to make multiple awards (multiple contractors)
                    covering the same scope of work under a single solicitation. Under a
                    multiple-award IDIQ contract, an agency uses streamlined procedures to
                    compete the orders among all contract holders.

                    Once awarded, an agency can place a task order for specific goods or
                    services in accordance with the terms of the IDIQ contract whenever
                    requirements arise. Thus, an agency can obtain needed goods or services
                    without creating a new contract each time. The guaranteed minimum in an
                    IDIQ contract is expressed as either the number of units or dollar value.
                    Under this type of contract, an agency is under no obligation to use the
                    contractor for more than the guaranteed minimum.

Competing           Fair opportunity, under the Federal Acquisition Streamlining Act of 1994,
Multiple-Award      requires agencies acquiring goods and services under a multiple-award IDIQ
IDIQ Task
Orders
                    contract to give every contract holder an equal opportunity to compete for
                    each task order of $3,000 or more. An agency must document the reasons
                    for issuing task orders under multiple-award IDIQ contracts using an
                    exception to the fair opportunity process in writing and approve the use of
                    the exceptions at levels that vary according to the dollar value of the
                    acquisition.

Interagency         An Interagency Acquisition describes the process by which one agency (the
Acquisition         requesting agency) uses the contracts and/or contracting services of another
                    agency (the servicing agency) to obtain goods and services. Interagency
                    Acquisitions are commonly conducted through indefinite-delivery contracts,
                    such as task- and delivery-order contracts. The indefinite-delivery contracts
                    used most frequently to support Interagency Acquisitions are Federal Supply
                    Schedules contracts and multi-agency contracts. The Economy Act, section
                    1535, title 31, United States Code, provides general authority to undertake
                    Interagency Acquisitions and FAR Subpart 17.5 provides Government-wide
                    regulations for Interagency Acquisitions.

                    There are two types of Interagency Acquisitions. A “direct acquisition” is a
                    type of Interagency Acquisition where the requesting agency places an order
                    directly against the servicing agency’s indefinite-delivery contract. The
                    servicing agency manages the contract but does not participate in the
                    placement or administration of an order. An “assisted acquisition” is a type
                    of Interagency Acquisition where the servicing agency and requesting
                    agency enter into a written agreement following which the servicing agency
                    performs acquisition activities on the requesting agency’s behalf, such as the
                    awarding of a contract, task order, or delivery order.

                    Prior to using an Interagency Acquisition, an agency must perform
                    acquisition planning and conduct market research to determine whether
                    goods and services suitable to the agency’s needs cannot be obtained

VA Office of Inspector General                                                                 10
                                                             Audit of VA’s TAC Contract Operations


                    conveniently or economically from a commercial source. An agency must
                    also demonstrate the Interagency Acquisition represents the best
                    procurement approach, is cost effective, and will result in using agency funds
                    in accordance with congressionally mandated limits. Agencies cannot use
                    Interagency Acquisitions to avoid full and open competition when planning
                    an acquisition.




VA Office of Inspector General                                                                 11
                                                             Audit of VA’s TAC Contract Operations


Appendix B          Scope and Methodology

                    This audit focused on IT services contracts awarded by the TAC from
                    October 1, 2010, through June 30, 2012. We performed audit work from
                    August 2012 through August 2013 at VA Central Office in Washington, DC,
                    and TAC field sites in Eatontown, NJ, and Austin, TX. We tested
                    management controls to ensure TAC acquisition staff plan, award, and
                    administer contracts in accordance with the requirements in the FAR, Office
                    of Management and Budget guidance, and VA policy.

                    Our methodology included reviewing applicable laws, regulations, and
                    Office of Management and Budget and VA guidance. In addition, we
                    interviewed Office of Acquisition Operations management at VA Central
                    Office in Washington, DC, and TAC field sites in Eatontown, NJ, and
                    Austin, TX, to determine applicable VA policies and Office of Acquisition
                    Operations standard operating procedures. We also interviewed System
                    Administrators of the Enterprise Acquisition Systems Service and Federal
                    Procurement Data System.

                    We statistically selected a sample of 79 IT services contracts awarded by the
                    TAC from October 1, 2010, through June 30, 2012. We traced the sample to
                    supporting documentation to verify the awarded contracts were supported by
                    sufficient acquisition planning, proper solicitation efforts, adequate
                    evaluation of contractor submitted proposals, and the administration of the
                    awarded contract. We also verified oversight of contractor performance and
                    that contract modifications were necessary to complete existing contracts.

                    To evaluate the Veterans Relationship Management and the Transformation
                    Twenty-One Total Technology IDIQ contracts’ average elapsed days, we
                    sequentially selected 104 task orders across both contracts that were awarded
                    using competitive procedures. We compared the date the TAC published the
                    request for proposal with the award date for each task order, computed the
                    total elapsed days, and divided that total by the 104 task orders.

Data Reliability    To test the reliability of the data, we interviewed VA officials and staff
                    responsible for maintaining Electronic Contract Management System
                    (eCMS), and reconciled the contract information in eCMS to contract
                    information reported in the Federal Procurement Data System. We
                    performed basic checks, such as checking for missing information and
                    duplicate records. We also traced more than 100 contracting actions
                    recorded in eCMS to supporting hard-copy documents. We believe the
                    computer-generated data in eCMS are sufficiently reliable to accomplish the
                    audit objectives.




VA Office of Inspector General                                                                 12
                                                            Audit of VA’s TAC Contract Operations


Government          We conducted this performance audit in accordance with generally accepted
Standards           government auditing standards. These standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based on our audit
                    objective. We believe that the evidence obtained provides a reasonable basis
                    for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                13
                                                             Audit of VA’s TAC Contract Operations


Appendix C          Statistical Sampling Methodology

                    To determine the effectiveness of management controls, we sampled IT
                    services contracts awarded by the TAC.

Population          TAC awarded 1,182 contracts from October 1, 2010, through June 30, 2012,
                    with a total reported value of approximately $5.2 billion. Of the
                    1,182 contracts, the TAC awarded 1,076 contracts to contractors that had a
                    total reported value of approximately $4.7 billion.          The remaining
                    106 contracts were Interagency Acquisitions awarded to other agencies.
                    These contracts had a total reported value of approximately $500 million.

Sampling            We stratified the universe of contracts into 12 groups based on information
Design              contained in contracting databases, TAC locations, and contract dollar
                    amounts. We designed the sampling plan to ensure selecting a sample of
                    contracts from all contracting databases, locations, and a range of contract
                    dollar amounts. In total, the sample included 79 contracts awarded from
                    October 1, 2010, through June 30, 2012, with a total reported value of
                    $1.1 billion. The sample is about 7 percent of the awarded contracts and
                    approximately 21 percent of the total reported contract value.

Weights             We calculated estimates in this report using weighted sample data. We
                    computed sampling weights by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling.

Projections         We used WesVar software to calculate the weighted population estimates
and Margins of      and associated sampling errors. WesVar employs replication methodology
Error
                    to calculate margins of error and confidence intervals that correctly account
                    for the complexity of the sample design. The margins of error and
                    confidence intervals are indicators of the precision of the estimates. If we
                    repeated this audit with multiple samples, the confidence intervals would
                    differ for each sample, but would include the true population value
                    90 percent of the time.

                    Table 2 provides the estimates associated with incorrectly awarded task
                    orders and Interagency Acquisitions. We used the conservative lower limit
                    of the 90 percent confidence interval for the estimate to account for the wide
                    variance in the margin of error. We projected the TAC did not compete at
                    least 20 task orders and missed an opportunity to save approximately
                    $57.9 million in acquisition costs. In addition, we estimated the TAC
                    incorrectly awarded at least 14 Interagency Acquisitions and missed an
                    opportunity to save approximately $50.8 million in acquisition costs.




VA Office of Inspector General                                                                 14
                                                             Audit of VA’s TAC Contract Operations


Table 2
                            Summary of Estimates, Margins of Error, and Potential Savings
                                                                       90 Percent
                                                        Margin     Confidence Interval    Sample
                       Type of Exception     Estimate
                                                        of Error    Lower      Upper       Size
                                                                    Limit      Limit
                     Incorrectly Awarded
                                                73         59         20         132        60
                     IDIQ Task Orders
                     Value of IDIQ Task       $610.9     $779.1     $289.7       $1.4
                                                                                            60
                     Orders                   million    million    million     billion
                     Incorrectly Awarded
                     Interagency                78         18         14          96        19
                     Acquisitions
                     Value of Interagency     $428.8     $208.3      $254      $637.1
                                                                                            19
                     Acquisitions             million    million    million    million
                      Source: VA OIG statistical analysis of incorrectly awarded task orders
                      and Interagency Acquisitions
                      Note: True lower limit cannot be less than known errors identified by the
                      audit.




VA Office of Inspector General                                                                   15
                                                                  Audit of VA’s TAC Contract Operations


Appendix D            Potential Monetary Benefits in Accordance                                 With
                      Inspector General Act Amendments



                                                                     Better Use
      Recommendation             Explanation of Benefits 	                          Questioned Costs
                                                                      of Funds


                                 Strengthening procedures to
                                 ensure IDIQ task order
                 1	              awards comply with FAR                 $0           $57.9 million
                                 should result in better use of
                                 funds.


                                 Strengthening procedures to
                                 ensure Interagency
                 2	              Acquisitions comply with               $0           $50.8 million
                                 FAR should result in better
                                 use of funds.

                                                            Total       $0           $108.7 million




VA Office of Inspector General                                                                       16
                                                                        Audit of VA’s TAC Contract Operations


Appendix E               Principal Executive Director for the Office of
                         Acquisition, Logistics, and Construction Comments



                 Department of
                 Veterans Affairs                              Memorandum

          Date:	      September 23, 2013

         From:	       Principal Executive Director, Office of Acquisition, Logistics, and
                      Construction (003)

          Subj:	      OIG Draft Report: Audit of VA’s Technology Acquisition Center Contracting
                      Operations (VAIQ 7395623)

           To:        Assistant Inspector General for Audits and Evaluations (52A)
                   1. 	 The Assistant Inspector General for Audits and Evaluations requested
                        comments on the findings and recommendations in the draft report, “Audit of
                        VA’s Technology Acquisition Center (TAC) Contracting Operations,” to
                        determine whether the TAC awards and administers information technology
                        (IT) services contracts in accordance with the Federal Acquisition Regulation
                        (FAR) and VA policy.
                   2. 	 The Office of Acquisition, Logistics, and Construction (OALC) has completed
                        its review of the draft report. OALC concurs with each of the three
                        recommendations and provides the following comments.
                        a. Recommendation
                              	                 1: We recommend the Principal Executive Director,
                           Office of Acquisition, Logistics, and Construction ensure that
                           contracting activities can adequately justify the use of exceptions to
                           competition requirements in Federal Acquisition Regulation (FAR)
                           when awarding Indefinite/Delivery Indefinite Quantity task orders.

                            OALC Response: Concur. OALC agrees that exceptions to the FAR
                            must be properly articulated. While OALC contends that the task
                            orders were properly awarded and compliant with the FAR, inadequate
                            documentation will be addressed. Corrective action shall include:
                            (1) issuance of an executive memorandum to all Office of Acquisition
                            Operations (OAO) organizations emphasizing documentation
                            requirements; (2) discussions among senior leaders about the audit
                            report, findings, and the need for substantive documentation; and (3)
                            assessment of OAO’s Acquisition Life Cycle Desk Book to determine if
                            narrative addressing documentation needs revising. Estimated
                            completion date: November 29, 2013.

                        b. 	 Recommendation 2: We recommend the Principal Executive Director,
                             Office of Acquisition, Logistics, and Construction require contracting
                             activities to ensure program offices adequately document that goods
                             and services cannot be acquired as conveniently or economically from



VA Office of Inspector General                                                                            17
                                                                  Audit of VA’s TAC Contract Operations



             Page 2.

              Subject: OIG Draft Report: Audit of VA’s Technology Acquisition Center 

              Contracting Operations (VAIQ 7395623)


                         a commercial source before awarding Interagency Acquisitions.

                         OALC Response: Concur. Contracting officers must ensure that
                         program offices adequately document and support the need for
                         entering into an interagency agreement (IA). OALC now requires
                         program offices to submit a business case to support the need for an
                         IA. The attached VA Procurement Policy Memorandum (PPM) 2013-
                         06, “Interagency Acquisitions (IAs), Guidance, and Procedures,” was
                         revised to ensure program offices adequately document that goods and
                         services cannot be acquired as conveniently or economically from a
                         commercial source. Specifically, Paragraph 5 (General Guidance),
                         Paragraph 6 (Types of Interagency Acquisitions), and Paragraph 8
                         (Preparation and Review Process) were expanded and provide
                         additional clarifying guidance and requirements.

                         Based upon the attached documentation, OALC requests closure
                         of this recommendation.

                   c.	 Recommendation 3: We recommend the Principal Executive
                       Director, Office of Acquisition, Logistics, and Construction build in
                       steps into the Integrated Oversight Process to hold contracting officers
                       accountable for preventing violations of Federal Acquisition Regulation
                       competition requirements.

                         OALC Response: Concur: The recently published PPM 2013-06
                         requires a single point of contact in the program office to warehouse
                         and maintain all documents required under the IA and the contracting
                         officer to obtain additional approvals and Office of General Counsel
                         review. The accumulation of documentation of all procurement actions,
                         including IAs, in the electronic contract management system improves
                         the Integrated Oversight Process assessment of compliance with FAR
                         competition requirements to include support for FAR exceptions. (See
                         Attachment.*)
              4. Should you have any questions regarding this submission, please contact
                 Shana Love Holmon, OALC Executive Assistant, at (202) 632-4606, or
                 shana.love-holmon@va.gov.




                  Attachment




                       *Attachment not included in this report as it is publicly available.

VA Office of Inspector General                                                                      18
                                                    Audit of VA’s TAC Contract Operations


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Timothy Crowe, Director
                                         Dennis Capps
                                         Debra Cato
                                         Charles Chiarenza
                                         Hope Favreau
                                         Lee Giesbrecht
                                         Johnny McCray
                                         Thomas McPherson
                                         Mark Mullery
                                         Brandon Parrinello
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                        19
                                   Audit of VA’s Technology Acquisition Center Contracting Operations




Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at http://www.va.gov/oig.




VA Office of Inspector General                                                                    20
